No. 21-148

In the Supreme Court of the
United States
_________
CALIFORNIA RESTAURANT ASSOCIATION, INC.,
Petitioner,
v.
SUPERIOR COURT OF CALIFORNIA, LOS ANGELES
COUNTY, ET AL.,
_________

Respondents

On Petition for Writ of Certiorari to
the Court of Appeal of the State of
California,
Second Appellate District
_________
BRIEF OF AMICUS CURIAE
IN SUPPORT OF PETITIONER
_________
CHARLES E. SLYNGSTAD*
BURKE, WILLIAMS & SORENSEN, LLP
444 South Flower Street, Suite 2400
Los Angeles, CA 90071-2953
Telephone: 213.236.0600
cslyngstad@bwslaw.com
Counsel for Amicus Curiae City of Santa Clarita
*Counsel of Record

i
TABLE OF CONTENTS

Page
INTEREST OF AMICUS CURIAE.......................... 1
SUMMARY OF ARGUMENT .................................. 2
ARGUMENT ............................................................ 4
I.

UNANSWERED QUESTIONS
REGARDING GOVERNMENT
AGENCY POWERS AND COVID
RESTRICTIONS WILL CONTINUE
FOR THE FORSEEABLE FUTURE ............ 4

II.

CALIFORNIA’S PUBLIC POLICY
OF OPEN GOVERNMENT SUPPORTS
THE TRIAL COURT’S DECISION............... 5

III.

THE TRIAL COURT DID NOT
ABUSE ITS DISCRETION BY
REQUIRING RESPONDENTS
TO PERFORM A RISK-BENEFIT
ANALYSIS ..................................................... 8

IV.

A PROPER RISK-BENEFIT ANALYSIS
INCLUDES CONSIDERATION OF
EFFECTS ON STAKEHOLDERS
LIKE THE CITY .......................................... 13

CONCLUSION ....................................................... 16

ii
TABLE OF AUTHORITIES
Page(s)
Federal Cases
Jacobson v. Massachusetts,
197 U.S. 11 (1905)…….……………………8, 9, 10
State Cases
Carrancho v. California Air Resources Board
111 Cal.App.4th 1255 (2003)……………….…...11
Cohan v. City of Thousand Oaks
30 Cal.App.4th 547 (1994) .................................. 7
Epstein v. Hollywood Entertainment Dist. II Bus.
Improvement Dist.
87 Cal.App.4th 862 (2001) .................................. 7
Western States Petroleum Assn. v. Trial Court
9 Cal.4th 559 (1995) .......................................... 11
State Statutes
Cal. Gov. Code section 54950 ........................... 6, 7, 8
California Health and Safety Code section
101040(a) ........................................................... 11
California Health and Safety Code Section 120175
........................................................................... 12

iii
Other Authorities
Cal. Const. Art. I, § 3(b) ........................................... 6

1

INTEREST OF AMICUS CURIAE1
The City of Santa Clarita (the “City”) is one of
the 88 incorporated cities within the County of Los
Angeles and, accordingly, restaurants within the
City are required to comply with the decision by the
Los Angeles County Department of Public Health
and Dr. Barbara Ferrer (collectively, “Respondents”)
to ban outdoor dining at restaurants beginning on
November 25, 2020 (the “Restaurant Closure
Order”). The City’s economy relies heavily on food
services, among other industries. The City’s
inhabitants depend on the food services industry for
work, and the sales tax revenues generated by the
City’s restaurants is a major source of funding for
the City. The City therefore has a vested economic
interest in the decision by the trial court to enjoin
Respondents from continuing the Restaurant Closure
Order unless and until Respondents perform a riskbenefit analysis of the impacts likely to result from
the Restaurant Closure Order.
The City, as a law and policy making
authority itself, also has a vested interest in
ensuring that government properly and adequately
Pursuant to S. Ct. Rule 37.6, counsel for all parties were given
timely notice of the City of Santa Clarita’s intent to file this
brief and have consented to the filing of this brief. No counsel
for a party authored this brief in whole or in part and no person
or entity other than amicus, its members or counsel made a
monetary contribution to its preparation or submission.
1

2
justifies its decisions to the public it serves.
Respondents here deny such obligation by taking the
position that the Superior Court of California in Los
Angeles County (“trial court”) was wrong to require
Respondents to perform the risk-benefit analysis.
Contrary to Respondents’ arguments, public policy
supports the trial court’s decision.
SUMMARY OF ARGUMENT
1. The Court should hear this case as the
risks of COVID and measures taken to slow the
spread of COVID will likely persist for months, if not
years, to come. Leaving questions of government
agency authority unanswered during a pandemic will
open the door for California health officials to order
closures and other restrictive edicts without showing
the reasoning behind those actions.
2. Respondents’ position is that, during a
period in which they declare a public health crises,
County health officials can impose nearly any
restriction at all and the officials do not need to
justify the decision to anyone – the public or the
courts. Respondents boldly assert: “Nor may the
court demand that the County produce a risk-benefit
analysis or indeed any empirical evidence to support
its action in temporarily banning outdoor dining.”
Respondents’ Petition for Writ of Mandate,
Prohibition or Other Appropriate Relief; Request for
Stay; Memorandum of Points and Authorities, Filed
December 17, 2020 (“Pet.”) at 13 (emphasis added.)
Respondents repeat essentially the same position

3
later in their petition: “In such circumstances
[referring to an epidemic], government may act
based on rational speculation and need not present
any evidentiary support or empirical data.” Pet. at 51
(emphasis added.) Respondents’ position is contrary
to law, and bad policy. The arguments in the City’s
brief assert that legal authority requires
governments to consider all relevant factors before
imposing a specific rule or restriction and to
articulate the reasoning. In the context of public
health decisions, the relevant factors include the
risks or costs that are likely to result from the rule or
restriction under consideration. Public policy and the
statutes under which Respondents purported to act
when imposing the Restaurant Closure Order
support the notion that they can be required to
conduct a risk-benefit analysis. Thus, the trial court
properly ordered Respondents to justify the
Restaurant Closure Order by performing a riskbenefit analysis and to demonstrate to the public
that it had done so.
3. The City also argues that a proper riskbenefit analysis includes tailored consideration of the
effects on specific localities, like the City, which has
consistently had lower rates of COVID-19 caused
deaths compared to Los Angeles County overall.
Considering the substantial negative economic,
social, and psychological consequences the
Restaurant Closure Order would have, the
Respondents should have to undergo a reasoned
analysis before the Restaurant Closure Order is
imposed county-wide.

4
ARGUMENT
I.

UNANSWERED QUESTIONS
REGARDING GOVERNMENT AGENCY
POWERS AND COVID RESTRICTIONS
WILL CONTINUE FOR THE
FORSEEABLE FUTURE

According to a recent update posted by the
Centers for Disease Control and Prevention (CDC),
there has been a reversal in the downward trajectory
of COVID cases. The rise of COVID case and
hospitalization rates around the country have been
“rapid and alarming.” And data shows the Delta
variant, currently the predominant strain of the
virus in the United States, is more infectious and
leads to increased transmissibility in comparison to
other variants, even in vaccinated individuals. Delta
Variant (Aug. 19, 2021)
https://www.cdc.gov/coronavirus/2019ncov/variants/delta-variant.html. It is likely the Los
Angeles County Department of Public Health will
continue to take measures to mitigate the spread of
COVID that will affect the entirety of Los Angeles
County, including the City. A decision from the
Court is necessary to ensure that government agency
powers are not exercised in an arbitrary or capricious
manner that may result in more harm than good.

5
II.

CALIFORNIA’S PUBLIC POLICY OF
OPEN GOVERNMENT SUPPORTS THE
TRIAL COURT’S DECISION

The trial court decided to close its order with
an important concept. Our government serves the
people, and the government should be able to justify
its decisions to the people. The trial court said: “This
analysis [referring to the risk-benefit analysis
ordered Respondents to perform before allowing the
Restaurant Closure Order to remain in effect
indefinitely] must be articulated for [real party in
interest California Restaurant Association, Inc.
(“CRA”)] and the public to see.” The trial court
properly ordered Respondents to justify the
Restaurant Closure Order by performing a riskbenefit analysis and to demonstrate to the public
that it had done so.
Underpinning the trial court’s order was a
recognition that the government’s decisions should
be grounded in reasoned decision-making. The
people are entitled to know the bases of its
government’s decisions, and whether the government
has considered the relevant information before
reaching its decisions. This concept can be traced to
the beginning of this country. The Declaration of
Independence provides for an open government: “We
hold these truths to be self-evident, that all men are
created equal, that they are endowed by their
Creator with certain unalienable Rights, that among
these are Life, Liberty and the pursuit of
happiness.—That to secure these rights,

6
Governments are instituted among Men, deriving
their just powers from the consent of the governed ....”
(Italics added.) The principle that public bodies must
hold open and public meetings (at which the public
can view and judge their government) is enshrined in
the California Constitution. See Cal. Const. Art. I, §
3(b) (guaranteeing public’s right of access to public
records and governmental meetings). The California
Legislature also codified this intent at Section 54950
of the California Government Code, which states:
In enacting this chapter, the
Legislature finds and declares that the
public commissions, boards and councils
and the other public agencies in this
State exist to aid in the conduct of the
people’s business. It is the intent of the
law that their actions be taken openly
and that their deliberations be
conducted openly.
The people of this State do not yield
their sovereignty to the agencies which
serve them. The people, in delegating
authority, do not give their public
servants the right to decide what is
good for the people to know and what is
not good for them to know. The people
insist on remaining informed so that
they may retain control over the
instruments they have created.

7
Cal. Gov. Code § 54950. The California Court of
Appeal has said about this statute that governs open
government in California:
It is clearly the public policy of this
state that the proceedings of public
agencies, and the conduct of the public's
business, shall take place at open
meetings, and that the deliberative
process by which decisions related to the
public's business are made shall be
conducted in full view of the public.
Epstein v. Hollywood Entertainment Dist. II Bus.
Improvement Dist., 87 Cal.App.4th 862, 867 (2001)
(emphasis added). Requiring decisions related to the
public’s business to be made in full view of the public
serves multiple goals, including facilitating public
participation in all phases of local government and
curbing misuse of the democratic process by secret
legislation of public bodies. See Cohan v. City of
Thousand Oaks, 30 Cal.App.4th 547, 555 (1994).
Contrary to Respondents’ apparent desire to
shield from the public view whatever support they
may have to enact the Restaurant Closure Order,2
the public policy of the state of California is
otherwise. The trial court was therefore correct to

“Nor may the court demand that the County produce a riskbenefit analysis or indeed any empirical evidence to support its
action in temporarily banning outdoor dining.” Pet. at 13.
(emphasis added.)
2

8
order Respondents (if they desire to continue the
Restaurant Closure Order beyond its three week
initial term) to demonstrate to Petitioner and to the
public through a risk-benefit analysis the reasons
Respondents believe the Restaurant Closure Order is
necessary. This process the trial court mandated
finds ample support in the law, and allows the people
to be “informed so that they may retain control over
the instruments they have created.” See Cal. Gov.
Code § 54950.
III.

THE TRIAL COURT DID NOT ABUSE ITS
DISCRETION BY REQUIRING
RESPONDENTS TO PERFORM A RISKBENEFIT ANALYSIS

The negative consequences of a decision are
certainly among the factors relevant to an agency’s
consideration of a given action. Failing to perform
any risk-benefit analysis or consider at all the
potential negative effects of the Restaurant Closure
Order demonstrates that Respondents enacted the
order arbitrarily, capriciously, and without
evidentiary support.
Performing a risk-benefit analysis in the
context of public health decisions finds support at
least as far back as Jacobson v. Massachusetts, 197
U.S. 11 (1905). That case involved a regulation
adopted by the City of Cambridge Board Of Health
that required all city inhabitants to be vaccinated or
revaccinated against smallpox because the board
found that the disease was “prevalent” in the city

9
and infections were increasing. Id. at 12. The board
also found that the vaccination order was “necessary
for the speedy extermination of the disease.” Id. This
Court, like the supreme judicial court of
Massachusetts before it, observed that vaccination is
an accepted form of preventative measure that
carries a low level of risk. This Court quoted the
following language of the decision by the supreme
judicial court of Massachusetts, which this Court
upheld:
He [referring to the trial court] would
have considered this testimony of
experts in connection with the facts that
for nearly a century most of the
members of the medical profession have
regarded vaccination, repeated after
intervals, as a preventive of smallpox;
that, while they have recognized the
possibility of injury to an individual
from carelessness in the performance of
it, or even in a conceivable case without
carelessness, they generally have
considered the risk of such an injury too
small to be seriously weighed as against
the benefits coming from the discreet
and proper use of the preventive; and
that not only the medical profession and
the people generally have for a long
time entertained these opinions, but
legislatures and courts have acted upon
them with general unanimity.

10
Id. at 23-24 (emphasis added). This Court also
considered the possibility that Massachusetts’
vaccination regulation could be applied in such a
manner that risk or cost would outweigh the benefit.
The Court said:
Until otherwise informed by the highest
court of Massachusetts, we are not
inclined to hold that the statute
establishes the absolute rule that an
adult must be vaccinated if it be
apparent or can be shown with
reasonable certainty that he is not at
the time a fit subject of vaccination, or
that vaccination, by reason of his then
condition, would seriously impair his
health, or probably cause his death.
Id. at 39. The Court was satisfied by the
maxim that all laws should receive a sensible
construction and therefore the Cambridge Board of
Health intended an exception to the vaccination
requirement when there was a particular showing of
resulting serious injury or possible death. Id. In
other words, when the risks outweighed the benefits.
Later cases, in ensuring that the government
has appropriately exercised its power, have
explained that the courts’ role is to “ ‘ensure that an
agency has adequately considered all relevant
factors, and has demonstrated a rational connection
between those factors, the choice made, and the

11
purposes of the enabling statute.’ ”3 Western States
Petroleum Assn. v. Superior Court, 9 Cal.4th 559, 577
(1995) (quoting California Hotel & Motel Assn. v.
Industrial Welfare Com., 25 Cal.3d 200, 212 (1979)
(superseded by rule on other grounds as stated
in Brinker Restaurant Corp. v. Superior Court, 53
Cal.4th 1004, 1036 (2012))); see also Carrancho v.
California Air Resources Board, 111 Cal.App.4th
1255, 1265 (2003). Under this authority, unless an
agency has “considered all relevant factors” (i.e.,
weighed the risks and benefits), the agency has acted
arbitrarily and capriciously.
The statutes under which Respondents
purported to act additionally support the notion
Respondents can be required to conduct a riskbenefit analysis. California Health and Safety Code
section 101040(a) states:
The local health officer may take any
preventive measure that may be
necessary to protect and preserve the
public health from any public health
hazard during any … ‘state of
emergency,’ or ‘local emergency’ as
defined by Section 8558 of the

The California Supreme Court’s direction that a government
agency demonstrate a rational connection between the factors
relevant to a decision, the choice made, and the purpose of the
enabling statute means Respondents are wrong when they
contend they have unfettered discretion to act during a
pandemic. See Pet. at 13, 51.
3

12
Government Code, within his or her
jurisdiction.
Section 120175 of the California Health and Safety
Code provides:
Each health officer knowing or having
reason to believe that any case of the
diseases made reportable by regulation
of the department, or any other
contagious, infectious or communicable
disease exists, or has recently existed,
within the territory under his or her
jurisdiction, shall take measures as may
be necessary to prevent the spread of
the disease or occurrence of additional
cases.
Both of these statutes require that health
officers act when “necessary.” A health officer cannot
know whether he or she is acting only when
“necessary” unless he or she weighs the foreseeable
potential risks of not acting against the perceived
benefits of proceeding with a contemplated course of
action.
In the present case, the trial court correctly
observed that Respondents failed to consider all
factors relevant to their decision to ban in-person
dining by failing to perform a risk-benefit analysis.
“By failing to weigh the benefits of an outdoor dining
restriction against its costs, the County acted
arbitrarily and its decision lacks a rational

13
relationship to a legitimate end.” See Appendix C of
Petitioner’s Application at 155a. The Court of
Appeal’s finding that a risk-benefit requirement is
“inconsistent with the court’s appropriate role” and
that all that is required is that the order not be
entirely arbitrary is inconsistent with California’s
public policy for transparent reasoning behind
decisions related to the public’s business and
inconsistent with the California Health and Safety
Code’s requirement that government officials only
take safety measures when they are actually
“necessary.” See Appendix B of Petitioner’s
Application at 23a. 25a.
IV.

A PROPER RISK-BENEFIT ANALYSIS
INCLUDES CONSIDERATION OF
EFFECTS ON STAKEHOLDERS LIKE
THE CITY

Respondents failed to articulate adequate
factors or considerations to trigger implementation of
the Restaurant Closure Order, and similarly have
not identified any measureable factors or
considerations that will result in rescission of the
order. The trial court identified a number of relevant
factors Respondents should have, but failed to
consider prior to continuing the Restaurant Closure
Order indefinitely. The court said:
A reasonable person would expect
[Respondents] to consider all pertinent
evidence on the benefits of closure,
including its own expert evidence, the

14
opinions of other experts such as
Kaufman and Bhattacharya (and
criticisms of their opinions), the China
Study, the Japan Study, and the Mayo
Clinic article (and criticisms of their
significance), the CDC study, the CDC
recommendation concerning outdoor
dining, the precautions already in place
for outdoor dining – socially distanced
outdoor dining, masks, and temperature
checks, and whether its trigger of 4000
new cases has any bearing on hospital
burden. As part of the risks of closure,
[Respondents] could be expected to
consider the economic cost of closing
30,000 restaurants, the impact to
restaurant owners and their employees,
and the psychological and emotional
cost to a public tired of the pandemic
and seeking some form of enjoyment in
their lives.
See Appendix B of Petitioner’s Application at 156a.
There existed at the time additional relevant data
that was available to Respondents to aid them in
reasoned decision-making, but which Respondents
failed to consider. Pandemic-related restrictions have
had, and will have, a significant impact on local
public entities like the City. In July 2020, the
Bureau of Labor Statistics of the United States
Department of Labor reported governments had shed

15
1.5 million jobs since February 2020.4 Despite
Respondents’ protestations that it is “impossible” to
analyze the impacts of Respondents’ “Covid-19
interventions” like the Restaurant Closure Order,
local government entities like the City have
estimated such impacts. As of May 2020, City staff
projected a $10 million loss in revenue to the City in
Fiscal Year 2019-2020 as a result of the state Safer
at Home Order.5 The City also estimates that
economic activity in the City is down 13% overall
when comparing the first three quarters of 2019 to
the first three quarters of 2020. The restaurant and
hotel sector in the City is down an estimated 25% in
the same time period. Other local public entities
have undoubtedly prepared their own economic
estimates. The analyses prepared by the City and the
data that support the analyses would have been
shared with Respondents if requested. Respondents
have offered no reasonable explanation for why this
relevant data cannot (or should not) be a part of
Respondents’ decision-making process.
Further demonstrating the arbitrary and
capricious nature of the Restaurant Closure Order is
the fact that Respondents instituted the order
county-wide and without regard to specific conditions

The report can be accessed at
https://www.bls.gov/news.release/archives/empsit_07022020.pdf
(see page 4).
5 The report can be accessed at
http://santaclaritacityca.iqm2.com/Citizens/FileOpen.aspx?Type
=1&ID=1605&Inline=True (see page 93).
4

16
in various locales. Los Angeles County “is one of the
nation’s largest counties with 4,084 square miles,
and has the largest population of any county in the
nation – nearly 10 million residents who account for
approximately 27 percent of California’s
population.”6 There are 88 incorporated cities within
the county.7 Respondents did not demonstrate to the
trial or appellate courts any rationale for imposing
the Restaurant Closure Order county-wide. The
COVID death rate of City residents has consistently
tracked lower than the county-wide death rate.8
A reasoned analysis would consider whether,
given this evidence, the Restaurant Closure Order
should be imposed county-wide. Respondents
admittedly conducted no such analysis. The trial
court was therefore correct in its finding that
instituting the Restaurant Closure Order indefinitely
was arbitrary and capricious.
CONCLUSION
For the reasons specified in this brief, the City
requests that a writ of certiorari be issued to review

See https://lacounty.gov/government/about-la-county/
See http://file.lacounty.gov/SDSInter/lac/1043530_0910CitiesAlpha.pdf
8 Los Angeles County COVID Case Summary from County of
Los Angeles County Public Health website (Aug. 24, 2021),
http://publichealth.lacounty.gov/media/coronavirus/locations.ht
m
6
7

17
the decision of the California Court of Appeal and,
ultimately, to reverse that decision.
Respectfully submitted,
CHARLES E. SLYNGSTAD*
BURKE, WILLIAMS & SORENSEN, LLP
444 South Flower Street, Suite 2400
Los Angeles, CA 90071-2953
Telephone: 213.236.0600
cslyngstad@bwslaw.com
Counsel for Amicus Curiae City of Santa Clarita
*Counsel of Record
Dated: September 2, 2021

